<html>
<title> - A NATIONAL SECURITY CRISIS: FOREIGN LANGUAGE CAPABILITIES IN THE FEDERAL GOVERNMENT</title>
<body><pre>[Senate Hearing 112-663]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-663

 
                  A NATIONAL SECURITY CRISIS: FOREIGN
            LANGUAGE CAPABILITIES IN THE FEDERAL GOVERNMENT

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2012

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
75-214                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88f9887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

              Jessica Nagasako, Professional Staff Member
              Patrick McIlheran, Professional Staff Member
                      Aaron H. Woolf, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Akaka................................................    37

                               WITNESSES
                          Monday, May 21, 2012

Eduardo Ochoa, Assistant Secretary, Office of Postsecondary 
  Education, U.S. Department of Education........................     3
Hon. Linda Thomas-Greenfield, Director General of the Foreign 
  Service and Director of Human Resources, U.S. Department of 
  State..........................................................     5
Laura Junor, Ph.D., Assistant Secretary of Defense for Readiness, 
  U.S. Department of Defense.....................................     7
Tracey North, Deputy Assistant Director Intelligence Operations 
  Branch, Directorate of Intelligence, Federal Bureau of 
  Investigations, U.S. Department of Justice.....................     8
Glenn Nordin, Principal Foreign Language and Area Advisor, Office 
  of the Under Secretary of Defense Intelligence, U.S. Department 
  of Defense.....................................................     9
Andrew Lawless, Member of the Globalization and Localization 
  Association and Chief Executive Officer of Dig-IT Strategies 
  for Content Globalization......................................    20
Allan Goodman, Ph.D., Member of the Council on Foreign Relations' 
  Task Force on U.S. Education Reform and National Security and 
  President of the Institute for International Education.........    21
Dan E. Davidson, Ph.D., President of American Councils for 
  International Education and Elected President of the Joint 
  National Committee for Languages...............................    23
Shauna Kaplan, a fifth grade student at Providence Elementary 
  School, Fairfax County, VA.....................................    29
Paula Patrick, Coordinator of World Languages, Fairfax County 
  Public Schools.................................................    29
Michelle Dressner, 2010 participant in the National Security 
  Language Initiative for Youth Program..........................    31
Jeffery Wood, a 2010 participant in the National Security 
  Language Initiative for Youth Program..........................    32
Major Gregory Mitchell, a 1995 Fellow for the David L. Boren 
  Fellowship Program.............................................    33

                     Alphabetical List of Witnesses

Davidson, Dan E. Ph.D.:
    Testimony....................................................    23
    Prepared statement...........................................   106
Dressner, Michelle:
    Testimony....................................................    31
    Prepared statement...........................................   125
Goodman, Allan:
    Testimony....................................................    21
    Prepared statement...........................................    99
Junor, Laura, Ph.D.:
    Testimony....................................................     7
    Prepared statement with attachments..........................    53
Kaplan, Shauna:
    Testimony....................................................    29
    Prepared statement...........................................   121
Lawless, Andrew:
    Testimony....................................................    20
    Prepared statement...........................................    88
Mitchell, Major Gregory:
    Testimony....................................................    33
    Prepared statement...........................................   130
Nordin, Glenn:
    Testimony....................................................     9
    Prepared statement...........................................    82
North, Tracey:
    Testimony....................................................     8
    Prepared statement...........................................    75
Ochoa, Eduardo:
    Testimony....................................................     3
    Prepared statement...........................................    39
Patrick, Paula:
    Testimony....................................................    29
    Prepared statement...........................................   123
Thomas-Greenfield, Hon. Linda:
    Testimony....................................................     5
    Prepared statement...........................................    48
Wood, Jeffery:
    Testimony....................................................    32
    Prepared statement...........................................   128

                                APPENDIX

Questions and responses for the Record from:
    Mr. Ochoa....................................................   134
    Ms. Thomas-Greenfield........................................   144
    Ms. Junor....................................................   147
    Ms. North....................................................   148
    Mr. Nordin...................................................   151
Statements for the Record from:
    David L. Boren, President, University of Oklahoma............   156
    Leslie C. Berlowitz, President, American Academy of Arts and 
      Sciences...................................................   158
    CommonSense Advisory.........................................   169
Letter from Secretary of Defense.................................   175


                      A NATIONAL SECURITY CRISIS:
        FOREIGN LANGUAGE CAPABILITIES IN THE FEDERAL GOVERNMENT

                              ----------                              


                          MONDAY, MAY 21, 2012

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka.

              OPENING STATEMENT OF CHAIRMAN AKAKA

    Senator Akaka. Thank you all for being here. I call this 
hearing of the Subcommittee on Oversight of Government 
Management, Federal Workforce, and the District of Columbia to 
order.
    I want to welcome our witnesses. Aloha and thank you for 
being here.
    As Chairman of the Subcommittee, I have held seven 
oversight hearings that emphasized the need to build the 
Federal Government's foreign language skills, from developing a 
foreign language strategy to improving U.S. diplomatic 
readiness. This is my final hearing on this topic.
    Today, we will review the importance of foreign languages 
to our national security and our economy. We will also examine 
the State of the Federal Government's foreign language 
capabilities and consider ways to improve our Nation's language 
capacity.
    Last year, we marked the 10th anniversary of the September 
11, 2001, terrorist attacks. This tragic event exposed our 
Nation's language shortfalls. The 9/11 Commission raised 
concerns about the shortage of personnel with needed Middle 
Eastern language skills at both the Federal Bureau of 
Investigation (FBI) and the Central Intelligence Agency (CIA), 
which hindered our understanding of the threat. These agencies, 
as well as the Departments of State, Homeland Security, and 
Defense continue to experience shortages of people skilled in 
hard-to-learn languages due to a limited pool of Americans to 
recruit from. Because of these shortages, agencies are forced 
to fill language-designated positions with employees that do 
not have those skills. Agencies then have to spend extra time 
and funds training employees in these languages.
    As U.S. businesses of all sizes look to expand, they need 
employees with the foreign language skills and cultural 
knowledge to access overseas markets. Our national and economic 
security is closely linked to how well our schools prepare 
students to succeed in a global environment. Experts indicate 
that learning languages starting at the K-12 levels develop 
higher language proficiency than those starting in college.
    The Federal Government must partner with schools, colleges, 
and the private sector to address this ongoing challenge at its 
root cause: Our Nation's failure to adequately invest in 
language education, starting at early ages.
    Even in a difficult budget environment, we must fund 
important international education and foreign language study 
programs to build the pipeline to a 21st century workforce, 
including the Foreign Language Assistance Program (FLAP). We 
must make sure that budget cuts are not at the expense of 
strategic national security interests. Short-sighted cuts, for 
example, to the Department of Education's Title VI program, 
could severely undermine the progress we have made in this 
area.
    Today, we will hear about agencies' progress on their 
language capabilities. However, I believe agencies can do more 
to coordinate and share best practices in recruiting, 
retaining, and training personnel. Furthermore, I strongly 
believe that a coordinated national effort among all levels of 
government, industry, and academia is needed to tackle the 
problem before us. If we work together, we can improve our 
Nation's language capacity and effectively confront the 
challenges to our Nation's security and economic prosperity.
    I look forward to hearing from our witnesses today and 
continuing the discussion on how we can address our Nation's 
language needs.
    Former Senator David Boren of Oklahoma, who has been a 
long-time advocate on this issue and was a friend while he was 
here, was kind enough to provide a statement for this hearing. 
He continues to urge that we invest in comprehensive language 
training and to address this language crisis.
    I will submit his statement\1\ for the record.
---------------------------------------------------------------------------
    \1\ The statement of David Boren appears in the appendix on page 
156.
---------------------------------------------------------------------------
    Senator Akaka. I look forward to hearing from our first 
panel of witnesses and welcome again you here today. Eduardo 
Ochoa, who is Assistant Secretary for the Office of 
Postsecondary Education (OPE) at the U.S. Department of 
Education.
    Linda Thomas-Greenfield, the Director General of the 
Foreign Service and Director of Human Resources at the U.S. 
Department of State.
    Dr. Laura Junor, the Deputy Assistant Secretary of Defense 
for Readiness at the U.S. Department of Defense (DOD).
    Ms. Tracey North, who is the Deputy Assistant Director of 
the Intelligence Operations Branch, of the Directorate of 
Intelligence, for the Federal Bureau of Investigation at the 
Department of Justice (DOJ).
    And, Mr. Glenn Nordin, the Principal Foreign Language and 
Area Advisor for the Office of The Undersecretary of Defense 
Intelligence at the U.S. Department of Defense. He is 
representing the Director of National Intelligence.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses. I would ask all of you to please stand and 
raise your right hand.
    Do you swear that the testimony that you are about to give 
this Subcommittee is the truth, the whole truth, and nothing 
but the truth, so help you, God.
    Mr. Ochoa. I do.
    Ms. Thomas-Greenfield. I do.
    Ms. Junor. I do.
    Ms. North. I do.
    Mr. Nordin. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be made a part of the record and I would also 
like to remind you to please limit your remarks to 5 minutes.
    Mr. Ochoa, will you please proceed with your statement?

TESTIMONY OF HON. EDUARDO OCHOA,\1\ ASSISTANT SECRETARY, OFFICE 
    OF POSTSECONDARY EDUCATION, U.S. DEPARTMENT OF EDUCATION

    Mr. Ochoa. Thank you. Good afternoon, Chairman Akaka.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ochoa appears in the appendix on 
page 39.
---------------------------------------------------------------------------
    Thank you for the opportunity to appear before the 
Subcommittee today. My name is Eduardo Ochoa and I am the 
Assistant Secretary for Postsecondary Education at the U.S. 
Department of Education. I am pleased to provide testimony for 
this hearing on national security and Federal foreign language 
capabilities. I particularly appreciate your focus on this 
issue as I have direct experience having been born in Buenos 
Aires, Argentina, where I attended bilingual schools until my 
family moved to the United States during my junior year of high 
school. I can tell you I personally understand the importance 
of foreign language programs as they not only provide students 
with a better understanding of other cultures, but they also 
provided me with a unique insight and appreciation of my own 
culture and language.
    Before providing an overview of our programs, let me 
express the Department's appreciation of your strong, 
longstanding support for the advancement of foreign language 
learning in this country.
    The Department believes it is imperative that we improve 
our Federal Government's foreign language capabilities. In 
keeping with this belief, the Department recently adopted a 
fully articulated international strategy designed to 
simultaneously advance two goals: Strengthening the educational 
attainment of U.S. students and advancing our Nation's 
international priorities. A key objective of our plan which is 
particularly relevant to the topic of today's hearing is to 
increase global competencies of all U.S. students including 
those from historically disadvantaged groups. The need for 
these competencies which we think of as 21st Century skills 
apply to the world is clear both for U.S. civil society and for 
our Nation's workforce, and for our national security.
    Right now, just 30 percent of U.S. secondary students and 8 
percent of postsecondary students are enrolled in a foreign 
language course, a long way from the multi-lingual societies of 
so many of our economic competitors. Two-thirds of Americans 
aged 18 to 24 cannot find Iraq on a map of the Middle East. And 
African-Americans and Latinos continue to be underrepresented 
among those who study abroad.
    The development of these skills, including foreign language 
proficiency, must start early, in elementary and secondary 
education. U.S. colleges and universities have a responsibility 
to help students further develop and deepen these skills but 
waiting until postsecondary education to start is too late. 
This means that school systems at all levels, from elementary 
to postsecondary, must place a far greater emphasis on helping 
students understand their responsibilities as global citizens. 
We believe that engaging students in these ways will help our 
Nation meet the President's 2020 college attainment goal with 
more graduates ready to lead us well into the 21st Century.
    I want to take some time to talk briefly about several 
programs funded by the Department through our Office of 
Postsecondary Education that support international learning and 
foreign language acquisition. We support the teaching and 
learning of foreign languages through a portfolio of 14 
discretionary grant programs under the Higher Education Act 
(HEA) Title VI and the Fulbright-Hays Act. Nine of these 
programs receive $66.6 million to operate domestically and four 
programs received $7.5 million to operate internationally.
    One of the primary roles of the Title VI and Fulbright-Hays 
programs is meeting the national need for expertise and 
competence in foreign languages and in foreign area and 
international studies. The National Resource Centers, supported 
under Title VI, represent the Department's primary mechanism 
for developing U.S. language and area expertise on college 
campuses.
    The 127 current grantee institutions provide instruction, 
research and development in over 110 less commonly taught 
languages from all world areas. These programs play an 
important part in meeting the needs of the Nation's Federal 
workforce, national security, and economic competitiveness for 
individuals with foreign language skills.
    In addition to our Title VI National Resource Centers, the 
companion program, Title VI Foreign Language and Area Studies 
Fellowships (FLAS)--provides funds to colleges and universities 
to assist undergraduate and graduate students in foreign 
language and area. In fiscal year (FY) 2011, 735 FLAS students 
attended summer language programs overseas. Title VI funding 
also supports the American Overseas Research Centers. In 2010 
alone, 11 of these centers worked with nearly 1,000 social 
science and humanities faculty and scholars, teachers, and 
students.
    The Federal investment in foreign languages and area 
studies is critical to developing and sustaining the pipeline 
of individuals with foreign language and international 
education skills that are needed to address national security 
and economic competitiveness needs. These programs also help to 
enhance the capacity of education institutions and agencies at 
all levels, including K-12 and postsecondary, to effectively 
teach and learn foreign languages.
    We are committed to continuing to improve and refocus our 
programs to support the goals of the Department's international 
strategy to strengthen U.S. education and advance the Nation's 
international priorities.
    We believe firmly that knowledge and understanding of other 
cultures and languages are, in an increasingly interconnected 
world, critical to building and sustaining our Nation over the 
coming years.
    Thank you, Mr. Chairman, for your attention to this 
important issue, and I would be happy to answer any questions 
later.
    Senator Akaka. Thank you very much for your statement.
    And now, Ms. Thomas-Greenfield, would you please proceed 
with your statement?

TESTIMONY OF HON. LINDA THOMAS-GREENFIELD,\1\ DIRECTOR GENERAL 
 OF THE FOREIGN SERVICE AND DIRECTOR OF HUMAN RESOURCES, U.S. 
                      DEPARTMENT OF STATE

    Ms. Thomas-Greenfield. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Thomas-Greenfield appears in the 
appendix on page 48.
---------------------------------------------------------------------------
    Thank you very much for the opportunity to appear before 
you today to discuss the Department of State's efforts and 
their challenges to build the foreign language skills we need 
to fulfill our mission and also to deliver on America's foreign 
policy agenda.
    I will be presenting a summary of my statement today and 
ask that the full statement be submitted for the record.
    The Bureau of Human Resources (HR) has the critical 
responsibility of building and maintaining an effective 
civilian workforce that can fulfill its role in strengthening 
the security and prosperity of our Nation. As Secretary Clinton 
emphasized in the Quadrennial Diplomacy and Development Review, 
managing threats, such as regional conflicts, wars, and 
terrorism, depends as much on diplomacy and development as on 
the use of military force.
    Therefore, we have increased the number of positions at 
difficult, hazardous posts that are vital to our foreign policy 
agenda. We now have close to 4,000 language-designated 
positions (LDPs) in these posts as well as in other locations.
    It is challenging to uphold the Department's high standard 
for foreign language capability with the increasing needs that 
we have faced over the past years.
    Over the past decade, there has been significant shift and 
growth of positions to the Near East, South Asia, and East Asia 
Bureaus requiring an increase in speakers of languages such as 
Arabic, Hindi, Urdu, Dari, and Chinese. Overall, positions have 
tripled in the Bureau of South and Central Asian Affairs (SCA) 
where language designated position requirements have increased 
tenfold and on the Bureau of Near Eastern Affairs (NEA) has 
doubled regular positions and the corresponding with Arabic 
requirements.
    The Foreign Service Institute (FSI) has expanded its 
foreign language training capacity to meet these demands and to 
raise the proficiency of existing foreign language speakers. 
More targeted recruiting, however, can help to address the 
current challenges, and we are recruiting aggressively for 
certain priority language proficiency skills.
    To address increasingly complex national security 
challenges, the State Department must have robust foreign 
language capabilities. Therefore, working with our interagency 
partners, we strongly encourage young people to study languages 
earlier in life, starting in middle and high school and 
continuing through college as my colleague just mentioned.
    To assist in building the pipeline, the State Department's 
Bureau of Educational and Cultural Affairs is providing 
language learning opportunities to thousands of American 
University, college, and high school students and teachers each 
year through our exchange program.
    However, we are very concerned that with budget 
constraints, universities are cutting language programs first 
before they cut anything.
    In addition, the Department has established incentives to 
encourage employees to strengthen their language skills, 
particularly in the so-called hard and superhard languages such 
as Arabic, Chinese, Russian, Japanese, Korean, and Hindi. Such 
incentives underscore the value placed by the Department on 
improving capacity in our most difficult and critical foreign 
languages.
    We appreciate the support we have received from you as well 
as from Congress as a whole under our Diplomacy 3.0 hiring 
program to hire a training complement that enables more 
overseas positions to remain filled while replacements receive 
the required languages and functional training so that we do 
not continue to assign people to posts who do not have the 
requisite language skills.
    While we work aggressively to recruit and retain the 
talented staff needed in places like Afghanistan and Iraq, we 
also must guarantee that our employees have the foreign 
language skills necessary to succeed in these challenging 
environments.
    But the need is not limited to a handful of countries. We 
have needs in many parts of the world, as I stated earlier. No 
matter where in the world our employees are serving, our 
employees must have the language skills to gather information, 
explain and advocate U.S. policies, establish and maintain 
diplomatic platforms, build and maintain trusts, and create 
relationships.
    In today's rapidly changing world, the need for these 
skills has never been more critical. In fact, we believe that 
our country's future well-being and security depend on them.
    Mr. Chairman, I thank you for the opportunity to address 
you today and I would be happy to answer any questions 
following.
    Senator Akaka. Thank you very much.
    Dr. Junor, please proceed with your statement.

 TESTIMONY OF LAURA J. JUNOR,\1\ PH.D., ASSISTANT SECRETARY OF 
       DEFENSE FOR READINESS, U.S. DEPARTMENT OF DEFENSE

    Ms. Junor. Thank you. Chairman Akaka, thank you for 
inviting me to talk to you about such an important topic. This 
is a priority for the Nation and for the Department of Defense.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Junor appears in the appendix on 
page 53.
---------------------------------------------------------------------------
    Let me begin by stating that Defense Secretary Panetta has 
long believed that having a strong language ability is critical 
to our national security and we are committed to fielding the 
most capable force that we deploy. Our mission success is 
directly connected to our ability to communicate effectively 
with local populations and international partners.
    Our current challenge lies in filling language-required 
positions with personnel that possess the requisite language 
skills. We have been reducing this deficiency but we need help.
    We need our Nation's schools to develop students with these 
skills from which we can recruit to meet our needs. Studies 
show that exposure to foreign language and early language 
learning greatly facilitate language acquisition.
    Therefore, bringing in individuals with foreign language 
skills make it easier to train people to higher levels of 
proficiency. This, in turn, would make it easier for us to fill 
positions with appropriately qualified individuals.
    We are working to overcome these challenges through 
collaborative interagency strategies to achieve our vision for 
language, regional, and cultural capabilities. The strategy 
addresses the importance of identifying our language needs, 
acquiring and sustaining language skills, enhancing language 
careers, building partners and increasing surge capacity. The 
department is improving the identification of its language 
needs through standardized capability-based processes. These 
processes enable the combatant commanders to articulate their 
language and needs or requirements and provide them to the 
military services who supply the staff to meet those needs.
    We have also sought innovative solutions to enhance the 
language acquisition and sustainment processes, which includes 
creating a national security workforce pipeline; enhancing 
language training and sustainments in the total force; 
increasing partner language capacity; recruiting native and 
heritage speakers; and creating financial incentives.
    Enhancing language careers is essential to sustaining and 
retaining persons with foreign-language skills. We are creating 
better opportunities for promotion of personnel with critical 
language skills, creating multiple regionally focused training 
initiatives and offering language enhancement opportunities to 
Federal national security employees.
    We also recognize the need for partners. The Department 
actively engages with Federal agencies through the National 
Security Education Board (NSEB), an interagency governance body 
that provides input on language, regional, and cultural issues.
    We also use an internal governance body, the Defense 
Language Steering Committee (DLSC), consisting of 
representatives from 25 key components across the Department to 
coordinate policies and programs.
    By experience, we have learned the importance of building a 
surge capacity to yield language expertise quickly and at a 
reasonable cost. The Department's National Language Service 
Corps (NLSC) provides a pool of qualified volunteers with high 
levels of proficiency in both English and foreign languages who 
can serve and then be activated as temporary government 
employees when needed.
    We have made real progress in improving our foreign-
language skills, regional expertise, and cultural capabilities 
to meet 21st Century national security challenges. Although we 
have achieved much success, we acknowledge that much work 
remains. Our vision and strategy are designed to build language 
and cultural capabilities so they are available to DOD and 
other Federal agencies when needed.
    Thank you, sir, for the opportunity to share the 
Department's efforts in this area and I am happy to answer any 
questions that you may have.
    Senator Akaka. Thank you very much, doctor.
    Ms. North, would you please proceed with your statement?

    TESTIMONY OF TRACEY NORTH,\1\ DEPUTY ASSISTANT DIRECTOR 
 INTELLIGENCE OPERATIONS BRANCH, DIRECTORATE OF INTELLIGENCE, 
  FEDERAL BUREAU OF INVESTIGATIONS, U.S. DEPARTMENT OF JUSTICE

    Ms. North. Thank you, Chairman Akaka.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. North appears in the appendix on 
page 75.
---------------------------------------------------------------------------
    I am proud to sit before you alone with my esteemed 
counterparts. I want to thank you for the opportunity to appear 
before the Committee today and in particular for your continued 
support for the FBI's foreign-language program and our critical 
mission.
    The Directorate of Intelligence's Language Services Section 
(LSS) is responsible for the organization's entire foreign-
language program. They support the FBI's mission by providing 
quality language services to the FBI and its partners. These 
services include foreign migrant recruitment, hiring, testing, 
training, translations, interpretations, and other foreign-
language related functions at the FBI. The Language Services 
Section provides a centralized command and control structure at 
FBI headquarters to ensure that our linguist resource base of 
over 1,400 linguists, an increase of 85 percent since 9/11, is 
strategically aligned with priorities set by our operational 
divisions and national intelligence priorities.
    The FBI relies on foreign-language capabilities to quickly 
and accurately inform operations and enhance analysis. The 
success of the FBI's mission is clearly dependent upon high 
quality language services and the ability to translate and 
analyze information in a timely manner.
    The FBI's foreign-language program has made great strides 
in its ability to meet the rising demand FBI language needs 
since September 11, 2001. The program has moved forward through 
increased recruitment, hiring, retention, specialized training, 
technology, and collaboration.
    We have also significantly increased the range and volume 
of the foreign-language training the FBI offers to personnel 
who need to develop language proficiency to do their jobs. 
Programs include academic immersion training, study abroad, and 
tailored language courses.
    We realize we are not able to address our foreign-language 
needs with recruitment, hiring, or training alone. So, we also 
invest in the development of human language technology tools. 
These tools provide the ability to triage and process large 
volumes of information while enabling the workforce to enhance 
productivity.
    Through collaboration, we address our foreign-language 
needs by leveraging the intelligence community and other 
partners through cross community resource sharing, joint duty 
assignments, and interagency short-term temporary duty 
assignment opportunities.
    We work with the National Security Education Programs 
(NSEP) national Flagship universities and Georgetown's English 
for Heritage Language Speakers Programs to funnel language-
capable people into the contract linguist process and we reach 
out to the National Language Service Corps when we have 
language needs we cannot meet with in-house language resources.
    As the executive agent for the National Virtual Translation 
Center (NVTC), we are able to provide virtual language support 
not only for other intelligence community partners but also for 
other agencies with foreign-language challenges.
    In closing, I want to thank you for the opportunity to 
appear here today and provide testimony on the FBI's foreign-
language program. As you know, more detail has been provided in 
my written testimony which I respectfully submit for the 
record. I am also looking forward to answering any questions 
you may have for me today.
    Senator Akaka. Thank you very much, Ms. North.
    Mr. Nordin, will you please proceed with your statement?

 TESTIMONY OF GLENN NORDIN,\1\ PRINCIPAL FOREIGN LANGUAGE AND 
    AREA ADVISOR, OFFICE OF THE UNDER SECRETARY OF DEFENSE 
            INTELLIGENCE, U.S. DEPARTMENT OF DEFENSE

    Mr. Nordin. Senator Akaka and other folks attending, I am 
honored to act as spokesman for the Director of National 
Intelligence in today's hearing. I am particularly honored, as 
I know this will be the last hearing of this Subcommittee 
chaired by you, sir.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nordin appears in the appendix on 
page 82.
---------------------------------------------------------------------------
    We, in the foreign-language community, are indebted to you 
for your leadership in bringing world language study to a focal 
point in national dialogue. Thank you.
    Foreign language capabilities, together with a deep 
knowledge of the cultures and societal infrastructure of the 
populace in geographic areas of interest to our national 
security, are of paramount importance to the successful 
performance of the strategic and tactical intelligence missions 
of today.
    The complexity of the Intelligence Community's (IC) mission 
in today's world and the variety of Nations and nonstate global 
actors impacting our national security and national interests 
make it an absolute imperative that we possess a deep 
understanding of their cultures, interests, and intentions 
along with the capability to understand and communicate in 
their languages.
    Professional language skills, cultural awareness, and 
textual knowledge are core competencies in the collection, 
processing, analysis, and dissemination of intelligence 
information.
    The shift in real and perceived threats to national 
security and global stability from 1992 until the present 
resulted in an increase in the number of world languages that 
are essential to understanding and dealing with those threats. 
A sharp increase in our needs for skills in the less and the 
least commonly taught languages led to shortfall in sufficiency 
and proficiency of the community's language workforce.
    In order to meet the needs of the day, the community and 
our forces engage contractor services comprised primarily of 
foreign nationals and civilian immigrants, citizen immigrants.
    We know that we must build an organic civilian and military 
language workforce of translators, interpreters, negotiators, 
and language analysts capable of supporting our steady State 
needs and vetting the contract capabilities needed during 
surge.
    Thus, the community is now set on a course to significantly 
increase and improve our organic capabilities together with 
rational employment of their foreign-language skills and 
foreign area knowledge. In order to retain their services, we 
need to offer these professionals rewarding careers as language 
specialists.
    While the technology of today and many tomorrows ahead will 
not replace the human cognitive skills in processing foreign 
language, rational integration of key technologies can 
facilitate the work process and enable higher productivity on 
the part of the language-equipped analyst.
    The Director of National Intelligence advocates a 
significant increase in foreign-language capability through 
expansion of the language-capable workforce while facilitating 
and expediting their work through integration of state-of-the-
art human language technology into the collection and analytic 
processes.
    Together with the Defense Department leadership, we are 
exploring the feasibility and potential cost benefits of a 
professional military cadre of translators, interpreters, 
language analysts, and instructors serving in the general 
purpose, special operations, and intelligence forces.
    Research has shown the advantage of starting language at an 
early age as noted before. The IC's STARTALK program which 
supports language students and teachers in the elementary and 
secondary school system is an essential first step.
    The Intelligence Community will seek to capitalize on the 
current investments in language education by targeting, 
recruiting, and hiring the best and brightest products of 
programs currently sponsored under IC and other Federal 
funding, and the community will continue to recruit and hire 
native and heritage speakers.
    I see that my time has about expired. I would like to 
continue for another minute, sir.
    Senator Akaka. Yes.
    Mr. Nordin. I would be remiss if I did not cite two 
activities sponsored by the Defense Department and the 
intelligence community that have and will continue to have 
major impact on national foreign-language capability.
    First, the Defense Language Institute Foreign Language 
Center (DLIFLC) that continues to produce novice, professional 
language specialists from high school graduates. The center 
also provides worldwide initial online learning as well as 
maintenance and enhancement continuing education to all 
entities.
    Second, the Center for the Advanced Study of Language, a 
university-affiliated research Center at the University of 
Maryland (UMD). The center is charged with improving the way we 
teach, learn, and employ second and multiple languages through 
research toward enhancing and optimizing human cognitive 
skills.
    The work of the center is contributing to improved aptitude 
testing, training and working memory and improved understanding 
of the languages of Africa and Asia.
    On behalf of the Director, I thank you for this opportunity 
to address this important national issue; and one final 
statement, sir, as foreign language capabilities are an 
inherent government responsibility, the Federal Government must 
continue its investment in these precious, valuable tools for 
national security.
    Senator Akaka. Thank you very much, Mr. Nordin.
    Dr. Ochoa, you testified, and it seems that the panel 
agrees to this, that foreign-language skills are critically 
important to our national security. However, the Department's 
only K-12 initiative, which is the Foreign-Language Assistance 
Program could, lose out on funding by competing with other core 
subjects and funding for Title VI language programs have been 
significantly reduced since Fiscal Year 2011.
    How will you support the Department's international 
strategy to develop globally competent students in light of 
these budget cuts?
    Mr. Ochoa. Thank you, Mr. Chairman, for the question.
    It is true that we have rolled that money into lump-sum 
funding for K-12 to provide more flexibility and more 
efficiency in the management of those programs but we are also 
placing, more globally, an emphasis on the development of 
global competencies.
    The fundamental message that we are transmitting is that in 
order to achieve the objectives of the President's 2020 goal, 
we have to have a kind of quality education that includes those 
global competencies as part of it. So, as we move beyond the 
focus on math and English language competency to encompass 
other subjects, these will also be emphasized and highlighted 
throughout the pipeline.
    Senator Akaka. I would like to follow up with a question to 
the rest of the panel. How will cuts in the Department of 
Education's language and international programs affect your 
efforts to build and maintain your Department's language 
capabilities? Ambassador.
    Ms. Thomas-Greenfield. Thank you very much for that 
question, and it is very relevant to what we do in the State 
Department in terms of training our officers for language 
skills.
    We know that it is more difficult to train people as adults 
than it is to bring them in with the foreign-language skills 
early on. And, it is our belief that young people who start 
language training as early as sixth and seventh grade come 
prepared with the languages when we hire them.
    Right now, we are spending, and this figure is a very rough 
figure, but about $250,000 for each position that we are 
training people for. If I use Iraq as an example, where we are 
signing people for 1 year when they come in. We have one 
officer in the position. We have one officer in the first year 
of training and one officer in the second year of training. If 
we brought those people in with the language skills, we would 
save that amount of money up front with our officers.
    Again, thank you.
    Senator Akaka. Thank you. Dr. Junor.
    Ms. Junor. Yes, Senator. To follow-up and to build on the 
last set of comments, DOD has built a lot of partnerships with 
the support of our national language fellowships with the 
States and we have made a lot of headway.
    But this relies on an infrastructure and capacity that was 
laid down by the Department of Education. So simply put, it 
makes a hard problem harder. Clearly, continued partnerships, 
public-private partnerships, the State-Federal partnerships 
will help us get through this but there is no question that we 
value our partnership at the Department of Education now and in 
the past.
    Senator Akaka. Thank you. Ms. North.
    Ms. North. So, as you know, the FBI recruits from our 
communities out there and whether we recruit from the heritage 
community, a native community, or for those people who have 
learned the language through education, for us our challenge is 
to get them through the recruitment and background process.
    So, as the Department of Education increases the number of 
students for us to recruit that are U.S. citizens, who have 
spent their life here in the United States as opposed to 
overseas, that increases the ability of us to get them through 
their background, their full-scope background quicker. And, for 
that reason we definitely appreciate what the Department of 
Education is doing for us in that respect.
    Senator Akaka. Thank you. Mr. Nordin.
    Mr. Nordin. Yes, sir. I think we have a responsibility in 
our outreach program from all of the Federal entities to go out 
and help the school boards and the systems to find ways to 
continue language education, and I think that is a 
responsibility that we bear.
    Senator Akaka. Thank you.
    Dr. Ochoa, as I mentioned in my statement, I believe 
coordination is key to addressing our language crisis and 
strategically target limited resources. How is the Department 
working with other Federal agencies to make sure that it's 
programs are addressing our national security needs?
    Mr. Ochoa. Mr. Chairman, thank you.
    Pursuant to the Higher Education Opportunity Act of 2008, 
the Secretary of Education consults annually with the 16 
cabinet agencies in the Federal Government to receive 
recommendations on areas of national need for expertise in 
foreign languages and world regions.
    The Department's Deputy Assistant Secretary for 
International Foreign-language Education and the senior staff 
at OPE serve as advisory committee members for the Department 
of Defense National Security Education Program and the 
Department of State's Title VIII program under the Bureau of 
Intelligence and Research.
    The Department also has an interagency agreement with the 
Department of State to assist with administration of the 
Fulbright-Hays programs administered by the Department, and the 
staff of our International Education Division works 
cooperatively with the Department of Commerce's International 
Trade Administration Western Hemisphere Office to plan and 
participate in seminars intended to give students and faculty 
at Historically Black Colleges and Universities (HBCUs) and the 
Hispanic-Serving Institutions (HSIs) an understanding of 
funding and other opportunities in international business 
education.
    And, we are also members of the Interagency Language 
Roundtable (ILR) which is an unfunded Federal interagency 
organization that was formally established in 1973 for the 
coordination and sharing of information about language related 
activities at the Federal level.
    So, that group serves as a premier way for the Department 
and agencies of the Federal Government to keep abreast of the 
progress and implementation of techniques and technology for 
language learning, language use, language testing, and other 
language related activities.
    Senator Akaka. Thank you. I would like to ask the rest of 
the panel to answer this followup question. Will you please 
discuss steps your Departments have taken to coordinate Federal 
language education programs? Ambassador.
    Ms. Thomas-Greenfield. Thank you again for that question.
    As you know, we have a premier language Foreign Service 
Training Institute at the Foreign Service Institute, and we 
make available places at the Foreign Service Institute for 
other agencies to participate in our language training program. 
We also participate in the interagency committees that look at 
language training.
    We think it is very important as our embassies represent 
the platform for all agencies overseas for those agencies also 
to have people with language skills who arrive to fill their 
positions as well. So, we see it as key to all of our foreign 
policy goals to have other agency individuals with the 
requisite language training.
    Senator Akaka. Dr. Junor.
    Ms. Junor. Sir, by far our biggest effort is the National 
Security Education Board which helps fund the National Security 
Education Program. This board was established by Senator Boren 
in 1991 and has been meeting since 1994. It brings together 
about seven Federal agencies to help achieve its main goal, 
which is to establish partnerships among the Federal 
Government, partnerships with Federal and State entities and 
even public-private partnerships.
    In doing so, we have helped create State roadmaps for 
education. These roadmaps are an opportunity for individual 
States to work with our Flagship institutions and they create a 
clearinghouse for best practices in providing language 
instruction to our kids.
    This pipeline then flows through elementary school, middle 
school, high school and into our Flagship colleges where we 
provide several initiatives. The Boren scholarships and grants 
ensure that we are not only creating folks with an awareness of 
language but some with that professional level of expertise 
that ILR-3 or better where we sponsor an immersive experience 
overseas. And in doing so, that creates a better pool for not 
only DOD but all of our Federal partners to draw from.
    Within DOD, we have several initiatives. Our Project Global 
Officer. We have a new project with the Reserve Officer 
Training Corps (ROTC) candidates and several initiatives for 
our Foreign Area Officers (FAOs) and we already heard about our 
Defense Language Institute (DLI) to create classes for military 
members to come and learn. Many of the teaching devices that 
are available through DLI are also open to Federal partners.
    Thank you, sir.
    Senator Akaka. Thank you. Ms. North.
    Ms. North. So, one of the better ways that we are actually 
collaborating with our partners is through the National Virtual 
Translation Center. This is a center that was created as a 
result of the USA Patriot Act back in 2001 and then in 2003 the 
FBI became the executive agent for this center under the Office 
of the Director of National Intelligence (ODNI).
    What this center does is they are a virtual capability for 
the U.S. Government and the intelligence community where they 
have provided support not only for the intelligence community 
but for DOD, the combatant commands. Particularly at one 
center, we have in Doha where they provided regional expertise 
to the embassies in that region, CENTCOM and AFRICOM.
    We are also a member of the Interagency Language Roundtable 
and the Foreign-Language Executive Committee (FLEXCOM) which is 
an interagency committee where best practices are shared and 
different initiatives and the outcomes for those initiatives.
    One of the results of that is the FBI created a language 
quality program where all of our products are then quality 
controlled before they go out the door. That became a best 
practice and that process and methodology was shared among our 
partners, not only here in the United States but also overseas.
    Then, we are just continuing to leverage the other IC 
partners as far as technology is concerned. As we know, that as 
technology develops we need to be able to triage our collection 
faster and in a more expeditious manner. We are hoping that 
through the combined efforts of all of our partners that 
technology will advance to a rate that we can use on a daily 
basis and it will cut back the time it takes us to actually 
review that collection. That is a priority for us.
    Senator Akaka. Mr. Nordin.
    Mr. Nordin. I suppose one of the big items is the STARTALK 
program that the DNI initiated as part of the National Security 
Language Initiative in which teachers and students in the 
elementary and secondary school system are treated to a summer 
of study and interchange in the languages that they have.
    There is a number of community meeting places where we all 
get together. The ILR is a primary one which is currently led 
by an employee of the Army.
    That unchartered and unfunded organization is doing just 
fine after 30 some years and its work is added to by the 
Foreign-Language Executive Committee of the ODNI. The State 
Department's FSI is a great host to this organization, and you 
have the Defense Language Steering Committee, the National 
Education's Security Education Program, all of these groups 
work together, sir. It is the most collaborative group of 
people that I have ever worked with. Thank you.
    Senator Akaka. Thank you. This question is for the national 
security agencies. The DOD has filled only 28 percent of the 
positions with language requirements with qualified employees 
and other agencies here are struggling with this issue as well. 
What challenges are your Departments facing in recruiting, 
hiring, and retaining personnel with the needed language skills 
and what steps have you taken to address these challenges? 
Ambassador.
    Ms. Thomas-Greenfield. Thank you again for that question.
    We are actually doing very well now in filling our 
language-designated positions with people with the requisite 
language training, and right now the State Department is about 
70 percent. We have a very high bar for that, and that is, 
people who have tested recently in the language at a 3-3 level.
    So, we feel we are doing very good but it is because we 
have done a lot of work over the past 3 years with the training 
float that we were able to develop based on a 3.0 diplomacy 
hiring. So, we have hired over the past few years about 15 
percent more so that we can put people in language training 
while others are in the jobs. We are somewhat concerned as we 
approach the next year because we do not have the hiring float. 
He will only be able to a hire to attrition and we need to 
continue to encourage more hiring or get support and resources 
for more hiring to continue to have that training float so that 
we can continue to train qualified people.
    Senator Akaka. Thank you. Dr. Junor.
    Ms. Junor. Yes, sir. I talked a lot about our first 
challenge and that is to try to improve the accession pool. 
After folks come in, we have two ways we think about this, 
teaching folks who come in their language capability. We have 
the Defense Language Institute Foreign Language Center. And 
that is creating an in-house cadre of language speakers and we 
can get them up to ILR-2. This is hard and it is expensive but 
it does serve its purpose.
    We are also using the Language Training Centers. In order 
to further improve our language capabilities, we are trying to 
improve how we use these folks. So, you may have seen recently 
that the Army is creating regionally aligned forces, and this 
will help us build expertise in other cultures as well as give 
service focal points for folks who speak those languages around 
the world to go and practice.
    We are also trying to expand how we use, over the last 
several years we have tried to expand how we use heritage 
speakers. We have the National Language Service Corp which is a 
very important surge capacity. That is over 240 languages that 
are at our disposal and there is no way we could have created 
such a competency starting from scratch. We are very thankful 
for that.
    We also have something called 09 Lima program and the 
Military Accessions Vital to the National Interest (MAVNI) 
program. These are methods for heritage speakers to come and 
actually serve as uniformed military members and serve as in-
house language and cultural experts. These folks have been 
critical to our efforts in Iraq and Afghanistan over the last 
10 years.
    And, we also have the Defense Language Institute English 
Language Center and again that is to increase the language 
capacity of our partners.
    Senator Akaka. Thank you. Ms. North.
    Ms. North. So, as I mentioned earlier, we actually have a 
linguist workforce of over 1,400 which is an 85 percent 
increase from 9/11 and our retention rate is 94 percent. So, we 
are actually doing fairly well in that regard.
    We have implemented what we call a workforce planning model 
where we actually do targeted recruitment toward languages 
where there is a shortfall or anticipated need. Our hiring goal 
is 90 percent fill rate. We are currently at 88 percent and we 
anticipate that we are going to meet our Fiscal Year 2012 goal, 
and the flexibility that we have is that mixed workforce of 
contract linguists and language analyst.
    As a result, we have reduced our average applicant 
processing time and we are down to now 10 months which, for us, 
is a really good news story. The challenges that we face in 
recruiting and hiring is our difficulty in finding those 
individuals who can pass the foreign-language test battery at 
the level that we require. They also need a polygraph 
examination and a full scope background.
    And then, given our requirements that a lot of our material 
has to be submitted to a court of law for evidentiary purposes, 
we have a higher bar set for our language skills.
    We have an average of 1 in 10 applicants actually getting 
through that applicant process. And of course, we are competing 
with everyone else here at the table for those same resources.
    The way that we mitigate those challenges is through 
recruiting fairs that we actually go out to look at the native 
and heritage communities. We advertise in those foreign-
language newspapers. We put out press releases and we do in-
person events. We also attend university hiring events and the 
intelligence community has a virtual career fair that we also 
attend.
    And then, we leverage the other language enabled employees 
in the FBI. We are able to provide them with a limited amount 
of foreign-language incentive pay where, if they have a 
language that is critical to our needs, we can actually reward 
them for that ability.
    And then, we also leverage our IC partners through cross-
community resource sharing. So, we host joint duty assignments, 
interagency short-term temporary duty assignments. We work with 
the National Security Education Program as I have mentioned 
before and that Heritage Language Speakers Program.
    Still we do have foreign-language needs and those continue 
to be Arabic, the Yemeni dialects, Chinese, Farsi, Pashto, and 
Somali.
    Senator Akaka. Mr. Nordin.
    Mr. Nordin. One of the difficulties that we have had has 
always been the inability to take people away from the 
positions where they are actively using their language and send 
them off to school to learn their language better or to do 
other jobs.
    We are very appreciative of the training float that was 
granted to the DNI for a number of positions so that we can 
send some of these people off to get their enhancement 
training.
    But the biggest difficulty we face, sir, I feel, is in our 
leadership, and I cannot give the specific names, but let us 
say the general Federal entity leadership is as unaware of the 
needs for language within their organizations as the general 
populace is failing to be aware of the needs for language in 
their community. It is a national disgrace in that respect, 
sir.
    And, it is that lack of knowledge that we need to correct. 
We need to find a way to communicate to our people just how 
important that interpreter/translator at the social services 
level is to a community's well-being. So, that is our biggest 
education challenge I feel.
    Senator Akaka. Thank you very much, Mr. Nordin.
    Dr. Junor, you mentioned earlier the National Language 
Service Corps. Will you please discuss how the Corps addresses 
the Department's language needs, as well as any plans to 
further develop the corps?
    Dr. Junor. Yes, sir. The National Language Service Corps, 
there are over 3,500 members at this point and about 400 more 
applicants. I mentioned before that this represents over 240 
languages around the world. There is a national pool that looks 
like our inactive reserve and a dedicated pool that looks like 
our active reserve.
    And, what this means is that it truly is a surge capacity 
for those emergent needs that must be filled. That dedicated 
pool represents a predictable and very broad capacity for 
languages that are not commonly found.
    Several geographic combatant commanders, to include CENTCOM 
and PACOM and AFRICOM are regularly drawing from this. Several 
of our force providers, our North Atlantic Treaty Organization 
(NATO) oriented units, are drawing on these capabilities as 
well as key agencies.
    Non-DOD agencies, and we have heard from some of them 
today, include everywhere from FBI to the Federal Emergency 
Management Agency (FEMA), the Internal Revenue Service (IRS), 
Department of Justice, Center for Disease Prevention, and 
several States. Individual States have drawn from the service 
corps.
    In a time of fiscal austerity, it is useful to point out 
that we have actually been able to recapture some of the 
investments we have made in Federal employees in that about 8 
percent of the service corps have previously had Federal 
background. So, we are recapturing those language capabilities.
    The National Language Service Corps is something that we 
rely on frequently and is relatively new in our world. As word 
is getting around, we expect the demand for this capability to 
increase. So, it is something that we take very seriously.
    Senator Akaka. Thank you. Let me ask my final question to 
the entire panel. What do you envision as the end goal for 
language capacity and what resources or authorities are needed 
to reach that goal?
    Mr. Ochoa, I would like to discuss the Department's vision 
for a national language capacity and I would like the other 
witnesses to discuss language capacity within your Departments. 
So, that is my question to the entire panel. And let me begin 
with Mr. Ochoa.
    Mr. Ochoa. Thank you, Senator Akaka.
    Well, ultimately we are really trying to prepare the Nation 
for the global 21st Century society that we are going into; and 
that requires, as we have outlined in our international 
strategy, the development of global competencies in our 
citizenry. This will lead to positive outcomes all around.
    In addition to the very focused national security concerns, 
there is improved understanding of the world, the greater 
effectiveness in our business dealings with other countries and 
other regions of the world, also a greater understanding of the 
diversity within our own country as we draw from populations 
across the world.
    This is the kind of society that we are going to be working 
in the future. We have, as we draw students from across the 
world, they represent a potential untapped resource because 
they are really bridges to communities all over the world.
    We are a Nation that, unlike many other countries, we are 
defined by an idea that draws people from all over the world 
and has for the lifetime of our country. And so, that is a very 
powerful asset that we have and I think that preserving and 
expanding that cultural diversity and the language that people 
bring is something that I think will stand us in good stead in 
the global society of the future.
    Senator Akaka. Well, I have always felt the diversity of 
our country is its strength, and so that is that part of the 
strength. Thank you.
    Mr. Ochoa. Absolutely.
    Senator Akaka. Ambassador.
    Ms. Thomas-Greenfield. Thank you again.
    The Department of State has a huge responsibility of 
carrying out our diplomatic goals all over the world; and in 
order to do that, we have to have a workforce that has the 
language skills to do it wherever we are in the world.
    So, what we see in the future or hope for in the future is 
to be able to recruit people with those language skills when 
they come into the Foreign Service so that we are able to 
deploy them as quickly as possible to those areas of the world 
where they are required and we would like to be able to have 
the resources to continue to train them in their languages, to 
improve their language skills so that as they go up in the 
Foreign Service, they are better able to negotiate for our 
government to help us prevent wars.
    This is a huge responsibility that we have and we know that 
we need to have people with language skills to carry out those 
responsibilities.
    Senator Akaka. Thank you. Dr. Junor.
    Ms. Junor. Yes, sir. We live with two realities. The first 
is that we are the biggest, largest consumer of language 
capabilities, that we are the biggest hirer of folks, we have 
the largest need of folks with language requirements in the 
Federal Government and probably nationwide and these are 
profound needs. These are needs in some of the most difficult 
languages out there.
    The second reality is that except for a gifted few, 
learning language is hard. It is not something that you do once 
and then is yours forever. You have to sustain that expertise 
throughout your career; and especially with the fiscal 
realities being what they are, our end state is the furtherance 
of the national plan, a national partnership.
    We cannot meet our needs alone. Partnerships like I said 
among our Federal partners to share best practices on how to 
help K-12 to keep that pipeline coming, practices on how to 
improve and sustain language capability once they have come in 
our doors, and further partnerships with Congress to help keep 
this pivotal national issue.
    Thank you, sir.
    Senator Akaka. Thank you. Ms. North.
    Ms. North. Since September 11, 2001, the FBI's Foreign 
Intelligence Surveillance Act (FISA) collection in counter-
terrorism and counter-intelligence related matters has 
increased significantly and we do not see that trend reversing 
at all. We project that the demand for translation services 
will only continue to increase.
    So, the challenge for us is achieving the goal of 
translating all of the material that we collect. We are never 
going to be able to do that because of what we collect and the 
volume that continues to come in.
    So, really what we need to be able to do is partner with 
our other agencies in the intel community, in the civilian 
community so that we have the resources that we need then to 
remain flexible so that we can meet those new and emerging 
threats as they appear.
    As years go along, the languages that are going to be in 
demand are going to change. Right now, we cannot predict what 
those languages will be 20 years from now but now is the time 
that we actually have to start training our workforce for those 
languages 20 years in the future.
    So to have those resources to remain flexible so that we 
can reconfigure our workforce and also to help work on the 
technology so that we can triage the material that we are 
getting to be able to ID the speaker, ID the language, look to 
see what we can do to actually focus our analysts so that their 
work becomes more productive and not such a sifting through of 
all the collection that we have.
    Senator Akaka. Thank you very much, Ms. North. Mr. Nordin.
    Mr. Nordin. The Director has laid a strategy of increasing 
the number of persons in the intelligence community who have 
command of other languages, cultures, knowledge of the 
countries and augmenting that increase with key technologies 
inserted at critical points within our intelligence collection 
and analytic systems so that you facilitate and control the 
volumes of material that are being processed.
    There is no one solution to the problem. It lies in the 
Nation itself understanding the need for foreign language in 
their daily lives. Thank you.
    Senator Akaka. Thank you. I want to thank this panel very 
much for your responses and your statements, of course. You 
have been very helpful and I want to wish you well as we work 
together to continue to increase our Nation's language.
    You are doing a great job but we still have more to do. I 
want to thank you for what you are doing and wish you well in 
your work.
    I would like to ask our second panel to please come 
forward.
    I want to welcome Mr. Andrew Lawless, Member of the 
Globalization and Localization Association and Chief Executive 
Officer of Dig-IT Strategies for Content Globalization; Dr. 
Allan Goodman, Member of the Council on Foreign Relations' Task 
Force on U.S. Education Reform and National Security and 
President of the Institute for International Education; and Dr. 
Dan E. Davidson, President of the American Councils for 
International Education and Elected President of the Joint 
National Committee for Languages (JNCL).
    It is the custom, as you know, of this Subcommittee to 
swear in all witnesses. I would ask you to please rise and 
raise your right hand. Do you swear that the testimony you are 
about to give this Subcommittee is the truth, the whole truth, 
and nothing but the truth so help you, God?
    Mr. Lawless. I do.
    Mr. Goodman. I do.
    Mr. Davidson. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be made a part of the record, and I would like 
also to remind you please to limit your oral remarks to 5 
minutes.
    So, Mr. Lawless, would you please proceed with your 
statement.

TESTIMONY OF ANDREW LAWLESS,\1\ MEMBER OF THE GLOBALIZATION AND 
  LOCALIZATION ASSOCIATION AND PRINCIPAL OF DIG-IT CONSULTING

    Mr. Lawless. Thank you, Chairman Akaka.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lawless appears in the appendix 
on page 88.
---------------------------------------------------------------------------
    Thank you for the opportunity to offer my testimony about 
the business of language in the United States; I will do so on 
behalf of the Globalization and Localization Association (GALA) 
that is the international trade association for the corporate 
translation sector.
    As an American citizen with a thick German accent and an 
Irish last name, I feel especially motivated to speak to you 
today how the shortage of language resources puts our economic 
security at risk.
    Let me give you some context first. U.S. businesses 
exported about $1.5 trillion in goods and $600 billion in 
services last year, all of which depended on language services 
to sell and market to audiences whose native language is not 
English.
    News statements, Web sites, movies, product literature, 
software, and safety information, labeling, digital games, and 
customs support are all translated every day in over 500 major 
language pairs.
    The outsourced language services industry represented in 
$15.5 billion of activity and 190,000 jobs in North America 
last year. This does not account for the vastly larger pool of 
part-time and freelance linguists in the United States, let 
alone the jobs that the language industry has indirectly 
created such as for the American people who market, sell, 
deliver, and support U.S. made products worldwide.
    Languages, and the business that they enable, may be the 
most powerful force in job creation in the United States today. 
Without translation and localization, U.S. businesses would be 
missing $2.1 trillion in gross income.
    As U.S. companies target multi-lingual audiences at home 
and abroad, they create a rapidly growing need for language 
services and a workforce that can deliver in cross-cultural 
settings. If you sell products in Germany, your customers will 
tweet back at you in German and your customer support team 
needs to be ready.
    To stay relevant and to continue to successfully compete in 
a global marketplace, U.S. companies must build language 
capabilities. Acquiring language skills takes time, repeated 
exposure, and practice to develop. Not acting immediately on 
these development needs have dire consequences on the U.S. 
economy.
    We are already seeing a chronic shortfall of qualified 
language specialists and stagnant translator activity. As a 
result, corporations are increasingly relying on less qualified 
translators and low quality machine translations, all of which 
are rendering their products less competitive in the global 
marketplace.
    The American workforce needs more key competencies in 
disciplines such as translation, localization, terminology, 
localization technologies, engineering, and multimedia. These 
skills are in high demand and will continue to be sought after.
    U.S. businesses and government agencies are addressing the 
needs for language competence but we need more cooperation 
between private sector, government, and academia.
    For example, investing in startup and existing language 
technology companies, promoting research and development of 
language activity in key areas such as emerging markets, 
homeland security and cyber crime, expanding the educational 
and career opportunities for U.S. citizens in language-related 
fields, and last but not least, training specialized workers 
such as law enforcement officers and the intelligence community 
in targeted skills.
    As an association, GALA has committed to educating our 
member companies in advancing our industry to alleviate the 
looming crisis but we cannot do it all on our own. We will need 
the close collaboration between translation service companies, 
technology providers, the buyer community, government, and 
academia.
    GALA would welcome the opportunity to expand on this 
testimony and our recommendations in more detail. We also 
appreciate the invitations from the previous panel to 
collaborate with the private sector and we are definitely open 
for that and welcome that conversation.
    And, thank you for the opportunity to testify and I am 
happy to answer any questions that you have.
    Senator Akaka. Thank you very much, Mr. Lawless.
    Dr. Goodman, please proceed with your statement.

TESTIMONY OF ALLAN E. GOODMAN,\1\ PH.D., MEMBER OF THE COUNCIL 
 ON FOREIGN RELATIONS' TASK FORCE ON U.S. EDUCATION REFORM AND 
     NATIONAL SECURITY AND PRESIDENT OF THE INSTITUTE FOR 
                    INTERNATIONAL EDUCATION

    Mr. Goodman. Thank you, Mr. Chairman. It was an honor to 
receive the call from this Subcommittee to present some 
testimony. It is a privilege to serve as President of the 
Institute of International Education which administers the 
Fulbright, Gilman, and Boren programs on behalf of the 
Department of State and the Department of Defense.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goodman appears in the appendix 
on page 99.
---------------------------------------------------------------------------
    What really captured my attention for this hearing was 
participation in the Council on Foreign Relations' Task Force. 
It was chaired by Secretary Condoleezza Rice and former 
Chancellor of the New York City Public School System, Joel 
Klein. It was a very bipartisan and very mixed group.
    For someone in a higher education, what really was to me 
the heart of the recommendation was the call for a national 
readiness audit which would help us understand the very things 
your statement and your questions and this Subcommittee have 
been asking about for a long time. How prepared is the Nation 
and at what levels are we teaching all of our citizens to have 
proficiency in another language?
    Now, it is easy for us in higher education and 
international education to forget just how many of our citizens 
are connected to the world and do not get the chance to study 
it.
    Seventy percent of Americans today do not have a passport. 
That is about the same percentage of Americans with a college 
education that cannot find Indonesia on a map, cannot find Iran 
on a map, and believe that South Sudan, the newest country in 
the world, is either in Southeast Asia or in South America.
    Most Americans who do study abroad go to a relatively few 
number of countries, many also English-speaking, and they study 
abroad for a very short period of time.
    The other thing that we tend to forget, except for you and 
this Subcommittee, is that foreign language learning in our 
country may be at the lowest level in our Nations history.
    Certainly, for college students today about, as Secretary 
Ochoa said, only 8 percent studying a foreign language, that is 
half of what it was in 1965; and yet, the need for, as you have 
noted many times, the need for much more proficiency in foreign 
language is where the future ought to be.
    The Federal programs that this Subcommittee has supported 
are quite strategic, therefore, in my view. Fulbright, Boren, 
Gilman, are global. They get our citizens to more than 150 
different countries.
    They are very diverse, not only in terms of where students 
go but the students from our society that go. More than half 
are from minority groups in our society, a much different 
portfolio and profile than is the normal study abroad profile 
of Americans going abroad. They go for longer periods of time, 
and that is conducive to language study.
    So, I think this Congress has repeatedly made very 
strategic investments in these programs and we are grateful. 
But to move the needle--I am not going to ask for more money to 
move the needle, what has to happen is that American higher 
education has to reinstitute foreign language proficiency as a 
graduation requirement for every undergraduate going through 
our systems.
    A hundred years ago that was true in every college in 
America, from technical schools to liberal arts schools to 
research universities, and today I do not think it is true for 
more than a dozen or two dozen in our whole country.
    That is the only thing that is really going to change the 
pipeline and assure that the panel that we just heard from is 
going to have the future language speakers that we need to 
protect our country.
    In conclusion, I want to depart from my written statement 
just a little bit because your Subcommittee is focused also on 
the District of Columbia. Twenty blocks from here my daughter 
runs a clinic, a pediatric clinic under a federally qualified 
health clinic.
    They have had over 600,000 patients visits last year and 95 
percent of her patients' language is mainly Spanish. When she 
went to medical school she realized that what she needed more 
than learning chemistry, biology, and physics, if she was going 
to be an effective doctor in your National Health Service 
Corps, was to be able to speak to patients in their own 
language and in this case it was their first language Spanish.
    I agree that more language for diplomacy and national 
security will help make our world a less dangerous place but I 
also think sometimes learning another language helps our 
citizens right here at home to live in a safer and more secure 
world.
    Thank you very much for your support of both programs.
    Senator Akaka. Thank you very much, Dr. Goodman.
    Dr. Davidson, please proceed with your statement.

 TESTIMONY OF DAN E. DAVIDSON, PH.D.,\1\ PRESIDENT OF AMERICAN 
 COUNCILS FOR INTERNATIONAL EDUCATION AND ELECTED PRESIDENT OF 
           THE JOINT NATIONAL COMMITTEE FOR LANGUAGES

    Mr. Davidson. Thank you very much, Senator Akaka, for the 
opportunity to appear before you today. It has been my honor to 
serve as the Elected President of the Joint National Committee 
for Languages for the last 4 years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davidson appears in the appendix 
on page 106.
---------------------------------------------------------------------------
    The foreign-language profession in the United States is in 
a strong position to address the needs that have been so 
articulately and eloquently spoken today by our colleagues from 
DOD, ODNI, State, Justice, Education, the foreign affairs 
community and American business.
    If we are to meet the demands of keeping the peace around 
the globe as called for by Secretary Panetta, of engaging 
audiences and institutions around the world as envisioned by 
President Obama and Secretary Clinton and also detecting the 
intentions and preventing the actions of those who would do us 
harm, as the National Security Agency (NSA) Director Michael 
Werthheimer has stated, then what is needed is a citizenry and 
a government workforce that includes substantial numbers of 
persons professionally fluent and culturally literate in the 
major languages and cultures of the world.
    Research shows that professional level knowledge of 
language is highly sensitive to cultural signals and cues, of 
understanding not only what people say but also how they use 
language to communicate, to modulate meaning, to conceal 
values, or communicate their intentions and their aspirations, 
to build rapport with one another, to persuade, to negotiate, 
to establish trust, or fail to establish trust, as the case may 
be.
    Information transfer, is a relatively minor part of 
communication if you look across the mass of communicated 
elements that we have; the cultural component is what is 
central. It is specific to each language, not something 
generically ``global,'' and here I differ a bit from one of the 
comments made earlier today. It can be very hard to discern, 
especially if you have never set foot outside the 
``greenhouse'' or a classroom in this country.
    We, in the foreign-language field, therefore, salute yours 
and the U.S. government's decision to raise the bar for 
language designated positions across agencies to Level III. But 
the real answer for scaling up the system and delivering 
speakers, readers, and analysts in major world languages and 
cultures to the new level required by the government is to 
begin that training as far upstream as we can take it, as you 
have said today, with an extended sequence in the K-12 system, 
periodic opportunities for full immersion in the target 
culture, continued advanced and content-oriented study in the 
university and a strong language maintenance strategy for the 
Federal and civilian work corps employees.
    Thanks to the National Defense Education Act (NDEA) of a 
half a century ago, the United States has been able to maintain 
a core capacity in the university level in for foreign language 
and areas studies for most world areas through Title VI and 
Fulbright-Hays both of which have been unfortunately reduced by 
40 percent over the past 2 years alongside the outright 
elimination of FLAP which you have commented on.
    This is movement in the wrong direction which we hope can 
be addressed by the Administration and Congress as soon as 
possible.
    On a more positive note, in the post 9/11 era, initiatives 
arising from the defense, foreign affairs, and intelligence 
communities notably National Security Language Initiative, 
which builds on Title VI and Fulbright-Hays, specifically aims 
at helping address the new mandate for high level language and 
culture across the sectors of the economy.
    And, here I simply want to mention programs that are making 
a big difference in the foreign-language field right now on the 
ground. The STARTALK program funded by NSA is running high 
quality stateside summer programs, 159 different programs in 10 
languages in 48 States and the District of Columbia. It is 
making a big difference even though it has not been out there 
very long.
    The State Department is investing more than $30 million a 
year in the National Security Language Initiative for Youth 
(NSLI-Y), Critical Language Scholarships (CLS), and related 
teacher programs supporting critical language study for more 
than 1,500 American university, college, and high school 
students a year.
    The NSLI-Y program, for example, is open to any student in 
the country and has a remarkable level of language achievement 
even for the short period that it works. Similarly the CLS 
program has done the same thing for the undergraduate students.
    The final point I want to make is the National Security 
Education Program's Flagship Program because, while it has some 
very promising K-12 pilots in place, it has totally reinvented 
the way that foreign languages are taught today in our 
universities, setting three as the logical outcome for a series 
of programs and training models that do not even require the 
undergraduate learner to be a major in that field.
    Together the NSLI group and those supported by Title VI and 
Fulbright-Hays are low cost, high quality, proven models that 
we believe are scalable. They are working in a few places right 
now. They could work in a lot of places with the same level of 
success.
    Thank you for the opportunity to comment.
    Senator Akaka. Thank you very much for your statement. Mr. 
Lawless.
    Mr. Lawless. Yes, sir.
    Senator Akaka. What are some of the barriers U.S. companies 
face when attempting to enter overseas markets and how does the 
process of localization assist companies in accessing and 
succeeding in these markets?
    Mr. Lawless. Right. There is a difference between 
translation and localization. Localization is the cultural 
adaptation of products or services to the target country.
    To give you an example, if you buy a Japanese car, you buy 
it here in the United States, you sit on the left even though 
it was produced in Japan where you sit on the right because you 
have left-hand traffic.
    So, you need to adapt your product. You need to adapt your 
user manual. You need to adhere to local laws and regulations. 
So that is the process of localization. It goes far beyond just 
translation, although translation is a most important part of 
localization.
    The question that you asked about the key challenges for 
U.S. companies to enter markets. That really depends on the 
organization. It starts very often with what they do not know 
how to put a document into translation.
    But most likely, and that resonates with what was said by 
the previous panel, it is lack of executive awareness; and if 
more executives understood that almost 50 percent of their 
income comes from overseas, they would pay more attention.
    I gave an example with Apple Computer. Apple Computer last 
year made $108 billion of revenue, 60 percent of that was 
generated abroad. Facebook's international revenue grew from 33 
percent in 2010 TO 44 percent in 2011. Wal-Mart international 
sales in the last quarter of last year rose by up to almost 9 
percent whereas the U.S. business slipped by half a percent.
    If more executives really understood that language is the 
key enabler for their success and for their ability to survive, 
they would not have a lot of middle managers in their companies 
that struggle to get a localization budget.
    Thank you.
    Senator Akaka. Thank you, Mr. Lawless.
    Dr. Goodman, as you mentioned in your testimony, you served 
on the Council on Foreign Relation's Task Force on U.S. 
Education Reform and National Security, which concluded that 
short falls in U.S. education raise national security issues. 
Will you please explain how the Task Force came to that 
conclusion?
    Mr. Goodman. Thank you, Mr. Chairman.
    We began with the horrifying statistic which was 75 percent 
of our young people today are unqualified or disqualified from 
military service.
    That was a number that shocked really all of us. Some are 
unqualified because of their educational background, some 
because of persistent health problems, and some because of 
obesity which we know is a major problem in America.
    So, we tried to zero in on the part of that population that 
at least we could fix and that was through education and what 
we tried to get agreement on and got a substantial amount of 
agreement was that America needs a core curriculum as about 20 
States and 20 Governors have now accepted.
    What surprised me the most was I thought I would have to 
fight very hard for a foreign language requirement to be 
considered essential and to be considered core. I did not have 
to at all.
    People on the task force really realized that it is our key 
to understanding the world that we share, to preparing 
Americans for global life and global work, and getting ready to 
enter national service whether it is in the security or 
diplomatic Everest.
    So, we believe in a core curriculum. We believe in foreign 
language, and we also believe in a readiness audit that helps 
establish the dialogue and then the coordination that you are 
concerned about among academia, the private sector, and also 
government.
    So, when we know where the gaps are, we can fix them.
    Senator Akaka. Yes. Mr. Lawless and Dr. Goodman, the Task 
Force's report discussed the reality of cyber espionage against 
business and government information systems.
    Would you explain why foreign languages are important to 
cyber security?
    Mr. Lawless. Yes. Right now we see an explosion of content 
on the Internet, only 20 percent of that content is in English 
so the rest I guess is not English.
    There is also a huge increase in what we call user-
generated content through blogs and other social media sites. 
So, if you want to analyze what is out there, if you want to 
understand what other people say about you as a company or 
about us as a Nation, then speaking those languages but also 
understanding these languages in the current context and the 
context of the culture is absolutely crucial.
    Senator Akaka. Dr. Goodman.
    Mr. Goodman. Thank you, Senator.
    Dan mentioned in his testimony that language conveys values 
and sometimes it conceals intentions and we need people skilled 
at understanding both. I think to me the same is true in the 
cyber security area.
    The Internet is an English-speaking world a lot, not 
exclusively, and it is being used by people with many different 
values and many different intentions, and so, I think part of 
our recommendation of the task force to focus on this is to try 
to understand those people who are speaking English using the 
Internet and have intentions that are very different than the 
ones we associate with simply sharing more information.
    Senator Akaka. Thank you.
    Dr. Davidson, your testimony notes that there is a general 
lack of knowledge of how to develop and implement language 
training from early childhood, and you recommended using the K-
12 Flagship model to build a pipeline of proficient language 
speakers.
    What key elements from this program can be emulated by 
schools across the Nation?
    Mr. Davidson. Thank you, Mr. Chairman, for that question.
    I think the lessons of Flagship are that best practices are 
out there in the field. Flagship did not sort of create a bunch 
of mystical new ways of learning language but rather it 
mobilized the best thinking in the field and stood back with a 
certain perspective and said how can we do all of this better 
and in a consistent way.
    I think in terms of the Federal role in the Flagship model, 
it is a very clever one in the sense that it does not attempt 
to purchase a turnkey shop of some kind but rather looks at 
those limited points of leverage along the way where a Federal 
boost can make the difference in whether a program survives or 
a student is motivated or the progress in learning that 
language is suitably advanced.
    For example, never to forget the importance of the teacher, 
the investment in the teacher. It is maybe not as sassy as a 
headline but the teacher is critical to this process. Another 
really strong lesson we have learned is that the overseas study 
piece or the summer intensive study piece can fit into a 
curriculum without doing damage to everything else.
    In fact, if you do it well, then you can actually pursue 
part of the major requirements later on, harking back to 
Allan's point about requirements. Those requirements can 
actually be continued overseas in the setting in a direct 
enrollment model.
    So, I think the key to Flagship really is mobilizing the 
best practices which are out there now, the standards, the 
outcomes. The field has its act together in that sense, and 
then looking at those points of leverage, like the summer, like 
the capstone where a little boost from an external funder can 
make it all come together.
    Senator Akaka. Thank you very much, Dr. Davidson.
    My next question is for the panel. I would like to give you 
all an opportunity to provide any final statements or comments. 
I know you have lots to say about foreign languages.
    Mr. Lawless. Yes. Well, thank you very much for giving us 
the opportunity to testify to you and the Subcommittee.
    As an industry association, we represent the majority of 
people that actually produce that work that generates $2.1 
trillion in revenue. And, we would really welcome the 
opportunity to cooperate with the previous panel and this panel 
because we have all the same challenges and I would like to 
note, as I only realized that after my testimony, that the 
entire first panel left the room before the second panel began.
    So again, thanks again for the invitation and I am looking 
forward to more conversation hereafter. Thank you.
    Senator Akaka. Thank you. Dr. Goodman.
    Mr. Goodman. Thank you, Senator. I simply hope that this 
Subcommittee and its exercise of government oversight will 
continue to focus on the very issues you have identified since 
9/11, the need for our country to be able to speak other 
languages to operate effectively in the world, the role that 
academia places in that, the role of the private sector plays 
in that, the role that the government plays in that.
    So, I hope that the spirit of these hearings will very much 
continue. Thank you.
    Senator Akaka. Thank you very much. Dr. Davidson.
    Mr. Davidson. Mr. Chairman, I would like to second what 
Allan just said about the importance of these hearings and the 
way you have been able to focus public attention over time to 
this very important need inside our government.
    I think the good news is that models are there that we can 
make a difference and those models are scalable. We mentioned 
Title VI. We mentioned the State Department programs and we 
mentioned the NSEP and the Flagship and STARTALK. These are 
excellent models that do not have to be reinvented and they are 
operating in 150 places or 12 places or in 24 places. It would 
take so little to double that number. The marginal difference 
in the cost would enable those models to be generalized and 
disseminated more broadly in the country. Thank you.
    Senator Akaka. Thank you.
    Well, I want to thank you so much for your responses, and 
of course, the statements. It will be helpful to this 
Subcommittee. We look upon you as key partners, and together we 
can use your expertise to improve our country's language 
capacity.
    We are a diverse country. We have the languages. We just 
have to use it well and make sure we train our people well to 
serve in that capacity. So, thank you very much. We appreciate 
your presence.
    Now, I would like to ask our third panel to please come 
forward. I want to welcome the third panel.
    We have Shauna Kaplan, a fifth grade student at Providence 
Elementary School in Fairfax County, Virginia.
    Ms. Paula Patrick, Coordinator of World Languages, Fairfax 
County Public Schools.
    Ms. Michelle Dressner, a 2010 Participant in the National 
Security Language Initiative for Youth Program.
    Mr. Jeffery Wood who was also a 2010 participant in the 
National Security Language Initiative for Youth Program.
    And, Major Gregory Mitchell, a 1995 Fellow for the David L. 
Boren Fellowship Program.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses. So, I ask you to please stand and raise your 
right hands.
    Do you swear that the testimony you are about to give to 
this Subcommittee is the truth, the whole truth, and nothing 
but the truth so help you, God?
    Ms. Kaplan. I do.
    Ms. Patrick. I do.
    Ms. Dressner. I do.
    Mr. Wood. I do.
    Major Mitchell. I do.
    Senator Akaka. Thank you.
    Let it be noted in the record that the witnesses answered 
in the affirmative.
    Before we start, I want you to know that your full 
statement will be made a part of the record and I would like to 
remind you to please limit your oral remarks to 3 minutes.
    So, Shauna, will you please proceed with your statement.

    TESTIMONY OF SHAUNA KAPLAN,\1\ A FIFTH GRADE STUDENT AT 
     PROVIDENCE ELEMENTARY SCHOOL, FAIRFAX COUNTY, VIRGINIA

    Ms. Kaplan. [Speaking in Chinese].
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kaplan appears in the appendix on 
page 121.
---------------------------------------------------------------------------
    I just said in Chinese: Hello everyone. My name is Shauna. 
I am 11 years old. I am in fifth grade at Providence Elementary 
School. I like Chinese class very much because Chinese class is 
fun.
    Senator Akaka. Xie xie.
    Ms. Kaplan. I have been taking Chinese since the 1st grade, 
which was the first year it was taught at my school. My Chinese 
teacher is Ms. Yuan, who has been my teacher all 5 years. There 
is a second Chinese teacher at my school, Ms. Su, who is 
teaching my little sister.
    I really like learning Chinese. Class is a lot of fun 
because we learn using a lot of games and activities that 
include everyone in the class and teach us new things. My 
regular teacher, Mrs. Pratt, told me she works with Ms. Yuan so 
that sometimes they are teaching about the same things at the 
same time. This year, when we learned about ancient 
civilizations in Mrs. Pratt's class, Ms. Yuan taught us about 
ancient China and different dynasties while we were learning 
Chinese. I like that they go together. Sometimes we even do 
math in Chinese.
    I want to keep learning Chinese. I want to be fluent in 
Chinese. I would like to visit China, and I want to be able to 
talk to the people there. I also like showing people in 
Virginia how I have learned Chinese, like when I count in 
Chinese the number of things we ate at my favorite dim sum 
restaurant. The people working there were very surprised that I 
could count in Chinese.
    Thank you for helping Fairfax have Chinese classes. I also 
want to thank Ms. Yuan for being such a great teacher, all the 
people who help her, and my mom and dad who encouraged me to 
learn Chinese and to work hard in school, and even my sisters 
who also got to take Chinese. I am very excited to be here 
representing them, all of Providence Elementary School, and 
Fairfax City. [Speaking in Chinese.]
    That means: Thank you everyone. I am happy to speak some 
Chinese today. Learning Chinese is not hard. You also can learn 
Chinese. [Applause.]
    Senator Akaka. Xie xie, Shauna.
    Ms. Patrick, will you please proceed with your statement.

TESTIMONY OF PAULA PATRICK,\1\ COORDINATOR OF WORLD LANGUAGES, 
                 FAIRFAX COUNTY PUBLIC SCHOOLS

    Ms. Patrick. Yes, Mr. Chairman. Mahalo.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Patrick appears in the appendix 
on page 123.
---------------------------------------------------------------------------
    Fairfax County public schools is the 11th largest school 
division in the country with approximately 175,000 students. 
The school division prepares students with the necessary skills 
that are desperately needed in the Federal workforce, national 
security, and on the economic front by providing a variety of 
language offerings to students in kindergarten through 12th 
grade.
    Funding provided by the Federal Government allowed Fairfax 
to implement Chinese and Arabic programs that would not have 
been implemented otherwise. Some policymakers simply felt these 
languages were too challenging for elementary students. Federal 
startup funding made it possible to implement Chinese and 
Arabic where district funds were not available.
    Once policymakers could see the success of the language 
programs, they gladly provided funding to ensure students could 
continue the languages through high school and have since 
expanded Chinese and Arabic to additional sites.
    The Foreign Language Assistance Program grant addressed the 
need of studying the critical needs languages. The funding 
provided a firm foundation for language study that ultimately 
increased the number of students learning Chinese and Arabic 
and provided them the opportunity to become proficient in these 
critical needs languages.
    Prior to the grant in 2005, we had 125 high school students 
learning Chinese and we had 162 students learning Arabic. Today 
we have a little over 5,000 students in elementary, middle, and 
high school learning Chinese and we have over 1,000 students 
learning Arabic.
    Our fifth grade students are now connecting sentences to 
convey meaning orally as well as in writing using characters 
and Arabic script.
    The FLAP grant awarded in 2006 actually funded projects at 
every level. With the funding, we developed a virtual online 
Chinese language course for the Virginia Department of 
Education which allows more students the opportunity to learn 
Chinese not just in Fairfax County but throughout the 
Commonwealth of Virginia.
    We developed an electronic classroom that broadcasts 
synchronous Arabic courses to Fairfax County high school 
students attending schools that do not have sufficient 
enrollment to offer Arabic. We also developed Chinese programs 
in the Fairfax high school pyramid which gives students in 
grades 1 through 12 an articulated program of study and we 
supported Chinese and Arabic programs at eight additional 
elementary schools and four high schools by providing 
professional development and materials. We also partnered with 
Georgetown University and George Mason University for student 
mentoring, seminars, guest speakers, and summer language camps.
    We now have ample research that proves what all other 
countries have known for a long time. We must start language 
learning at an early age when the brain is most receptive to 
language acquisition. Mastering a foreign language takes time, 
sequential study and practice. When language supervisors 
propose starting a language program, they are often denied due 
to already stretched district and State budgets. Policymakers 
view them as a want and not a need for students. Federal 
funding is the only way we can initiate programs that will 
prove to the taxpayers and policymakers that the money is well 
spent once people can see what these children can do with a 
second language. We do not know what the world will be like in 
20 years but we do know we cannot say that we are educating our 
students for the 21st Century if we are not giving them the 
tools they need to protect the country and to keep America the 
superpower it is today.
    In closing, I would like to say that Fairfax County public 
schools is thankful for the Federal funding that we received 
and 6,000 Fairfax County students studying Chinese and Arabic 
are thankful too.
    Senator Akaka. Thank you very much, Ms. Patrick.
    Ms. Dressner, please proceed with your statement.

  TESTIMONY OF MICHELLE DRESSNER,\1\ 2010 PARTICIPANT IN THE 
    NATIONAL SECURITY LANGUAGE INITIATIVE FOR YOUTH PROGRAM

    Ms. Dressner. I have always been an adventurer. I enjoy 
puzzles, exploring, and learning new things. These qualities 
led me to apply for the National Security Language Initiative 
for Youth (NSLI-Y).
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Dressner appears in the appendix 
on page 125.
---------------------------------------------------------------------------
    I studied Russian in high school for 2 years. I decided 
that the ideal way to get to the next level in Russian language 
was through immersion. So, in my senior year of high school, I 
applied for NSLI-Y, a scholarship funded by the U.S. Department 
of State through the Bureau of Educational and Cultural Affairs 
and Administered by American Councils for International 
Education. When I won a semester NSLI-Y scholarship to study in 
Nizhniy Novgorod, Russia, I was ecstatic. However, I had no 
idea how significantly this experience would change my 
perception of culture and language as well as shape my 
educational and career aspirations.
    During my time in Russia, I lived with a host family. On my 
first day, they were unsure of how to behave around me, how to 
speak to me, and even how to feed me. Bread? Pancakes? Soda? 
What do Americans eat for breakfast?
    Unfortunately, my ability to communicate was limited to 
prepared phrases I learned in high school and at my program 
orientation. I knew how to say hello, goodbye, please, thank 
you, and very tasty. Well, ``very tasty'' was helpful with the 
food issue. However, I felt unable to communicate my emotions 
and learn more about the family kind enough to keep me as their 
guest. I wanted so badly to speak to them and tell them how 
grateful I was for their generosity and hospitality. My host 
family made my reason for language learning personal and 
emotional.
    My goal to communicate in Russian was achieved through 
practice speaking with my family, practice around the city, and 
my studies at the Nizhniy Novgorod Linguistics University. 
There our professors, Natalia and Svetlana, put an 
extraordinary amount of effort into teaching us Russian. 
Through their teaching, I quickly became able to express 
myself. My host mom was delighted when I asked her about her 
day and told her about the poem I was reading, all in Russian. 
My new friends, professors, and host family inspired me.
    After returning from Russia, I was confident not only that 
I wanted to study Russian in college, but that I wanted to 
pursue a career involving Russia and international relations. 
In 2014, I will graduate from Smith College with a double 
major: Economics and Russian Civilization. I hope to work in 
public service for either the U.S. Department of State, a 
sector of the Federal Government, or a nonprofit organization. 
By pursuing a career involving public service and Russia, I 
know that I will be working in a field that I am passionate 
about, and it is through NSLI-Y that I discovered my passion 
for Russian studies.
    Thank you, Mr. Chairman, for this opportunity and I would 
be happy to answer any questions.
    Senator Akaka. Thank you very much, Ms. Dressner.
    Mr. Wood, please proceed with your statement.

    TESTIMONY OF JEFFREY WOOD,\1\ A 2010 PARTICIPANT IN THE 
    NATIONAL SECURITY LANGUAGE INITIATIVE FOR YOUTH PROGRAM

    Mr. Wood. NSLI-Y is a federally funded program by the U.S. 
Department of State that has allowed me to do unimaginable 
things. Without the support from NSLI-Y, I would not have been 
granted the opportunities that I have experienced such as going 
to Beijing, China twice in my lifetime along with speaking in 
front of you all today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wood appears in the appendix on 
page 128.
---------------------------------------------------------------------------
    Additionally, I would not have pursued learning the Chinese 
language. This program highlighted the importance of language, 
especially the Chinese language and how learning the language 
can benefit me and others.
    Prior to graduating from high school, I had no interest in 
learning another language. As a student who attended Roosevelt 
High School in Washington, DC, my opportunities were very 
limited. However, during my 10th grade year, I was granted an 
opportunity that changed my life forever. After much convincing 
from my AP government teacher, I applied for the Americans 
Promoting Study Abroad program (APSA). I figured this would be 
a way to view the world outside of my local periphery. But I 
took a chance and it paid off. I was offered the opportunity to 
study abroad in Beijing, China for 6 weeks to study Chinese 
language and culture.
    I am forever grateful that NSLI-Y's funding granted me the 
opportunity to go to China. As a student who had never been on 
a plane prior to going to Beijing, this was a life-changing 
experience. I appreciate that Americans Promoting Study Abroad 
targets students that live in underrepresented communities 
across the Nation because that is where dire attention needs 
focus now. It is not just the students who can afford these 
opportunities that are deemed ``globally aware'' because of 
their travel experiences, but also through the lenses of 
students like me, and ones in underrepresented communities 
because every student deserves a global experience.
    Since my experience, I decided to pursue a future career in 
the Foreign Service, working either in an international 
development organization or intergovernmental organization/non-
governmental organization (IGO/NGO). I recently finished my 
freshman year at George Mason University where I am pursing a 
double major in Global Affairs with a concentration in 
international development and a major in Chinese. I am also 
currently in the Chinese language buddy program at my college 
where you chat and build relationships with native Chinese 
citizens that come to study at Mason. I would have probably 
pursued a career very different from the one I am pursuing now 
if I did not go to the program.
    These types of programs are very necessary for the 
development of our future young generation because without 
them, we have very limited views on the world. As the United 
States becomes more diverse, more interactive, more developed 
technology-wise, we have to understand that the only barrier 
that we have to break through is communication, especially 
through languages such as Chinese.
    Improving the foreign language capacity of the Nation is 
crucial to the United States' success over this lifetime. In 
order to become powerful, we have to learn to adapt and learn 
new knowledge. Through language and immersion, you achieve both 
requirements.
    Thank you for your time and I am happy to answer any 
questions that you have.
    Senator Akaka. Thank you very much, Mr. Wood.
    Major Mitchell, please proceed with your statement.

 TESTIMONY OF MAJOR GREGORY MITCHELL,\1\ A 1995 FELLOW FOR THE 
               DAVID L. BOREN FELLOWSHIP PROGRAM

    Major Mitchell. Chairman Akaka, I thank you for the 
opportunity to discuss my experiences as a Boren Fellow and the 
impact the program has had on my career as an Army Officer.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mitchell appears in the appendix 
on page 130.
---------------------------------------------------------------------------
    Before entering the Army, my Boren Fellowship afforded me 
the opportunity to spend a semester at the American University 
in Cairo's Arabic Language Institute. It was an experience 
which significantly shaped my decision to enter the military 
and has significantly impacted my career as an Army officer 
specialized in the affairs of the Arab world. I have served a 
total of 48 months in the Middle East as both a combat arms 
officer and a Foreign Area Officer. Throughout my career I have 
leveraged my Arabic language training to build partnerships at 
the tactical, operational, and strategic levels with our 
partners in the region. I have studied Arabic in a variety of 
venues, to include the Foreign Service Field School in Tunis, 
Tunisia; Princeton University; and my Alma Mater Washington 
University in St. Louis. However, it was the semester I spent 
in Cairo as a Boren fellow where I laid the groundwork for a 
high degree of spoken Arabic proficiency.
    I first put my Arabic language skills to work in 2003 when 
I served in al Anbar province with the 3d Armored Cavalry 
Regiment. My commander understood the valuable role I could 
play in the unit's efforts to build rapport with local Iraqi 
officials and he placed me in charge of the Squadron's 
government support team. The rapport I built in cities such as 
Fallujah and Habaniya saved American and Iraqi lives and helped 
my unit develop a successful counterinsurgency strategy.
    In 2004, I took command of a tank company in the 3d Armored 
Cavalry Regiment and trained my men for a second tour beginning 
in April 2005. Because I could speak Arabic, my commander again 
placed me in a unique role partnered with an Iraqi Army 
battalion on the outskirts of Tal Afar in Ninewa Province. Our 
tour was very successful and our partnership with our Iraqi 
battalion was recognized as one of the strongest American-Iraqi 
tactical partnerships at that time. With my Arabic, I was able 
to plan and execute tactical operations with my Iraqi 
counterparts without an interpreter. I have the National 
Security Education Program to thank for that.
    Because of my Boren fellowship, I came to the Army with a 
unique skill set that I have leveraged to build and strengthen 
important tactical and strategic relationships with our 
partners in the Middle East. Boren Fellows and National 
Security Education Program alumni like me are currently serving 
across the Department of Defense and other governmental 
agencies. We arrive at the Federal workplace language enabled 
and regionally astute, ready to address complex problems and 
build lasting partnerships across the globe.
    And, sir, I want to thank you for your continued interest 
in this very important capability. Thank you.
    Senator Akaka. Thank you very much, Major Mitchell.
    Shauna, when I was a youngster my dad spoke Chinese and 
Hawaiian in Hawaii, but at that time people thought it was bad 
for children to learn multiple languages. So, my parents did 
not teach me. As a matter of fact they said speak English.
    You are very lucky because now we understand that it is 
good for students and very important for our country to teach 
foreign languages. My question to you is: What do you like most 
about learning a different language and what made you want to 
learn it?
    Ms. Kaplan. What I like most about learning Chinese is how 
it is taught to us through activities but still learning. I 
guess my parents inspired me to learn another language because 
I was already learning one because of my religion, and I just 
like learning more about the other cultures and ideas that 
inspired me to learn Chinese.
    Senator Akaka. I see. Did you have an opportunity to go to 
a Chinese community or to China?
    Ms. Kaplan. Not yet, but I am hoping to when I am older to 
go to China and learn more about the culture and their way of 
life.
    Senator Akaka. As you know, there are different dialects in 
China. When I said my father spoke Chinese, he spoke Cantonese. 
So, it is a little different from the major language now in 
China.
    Thank you very much for your responses, Shauna.
    Ms. Patrick, I am impressed with your achievements in 
educating young students in foreign languages and I would like 
to say mahalo, thank you, to you as well.
    Ms. Patrick. Thank you.
    Senator Akaka. Do you know how often students continue 
their language study after they finish your program and how the 
program has influenced their career goals?
    Ms. Patrick. I think the key is when you start language 
learning at an early age, students do not really look at it as 
being a difficult language or really even an academic subject. 
They look at it as a communicative tool and we now have all of 
our language lessons that are related to content. So, they are 
using language to problem solve in the area of math, science, 
and social studies.
    And so, to continue on as you heard today, it just seems 
like the natural next step. You are learning the language to 
sixth grade, you continue on through seventh until you hit the 
higher levels of proficiency which we are seeing in our 
students.
    The students, it is interesting, we do not encourage them 
to only think of two languages. We want this to be the 
foundation of multiple languages.
    So, sometimes we see our students take on even another 
language in middle school or high school and continue on with 
two or three languages in college. So, I think because we are 
developing that fearlessness of language, they are also more 
encouraged to continue with the language at the higher level of 
education.
    Senator Akaka. Thank you.
    This question is for Ms. Dressner, Mr. Wood, and Major 
Mitchell. How has learning a foreign language and about a 
different culture shaped your perspective about the world we 
live in? Ms. Dressner.
    Ms. Dressner. Well, I feel that learning a language and 
learning about the culture is critical to language learning in 
general because it gives you a basis for understanding and you 
can really connect more to the language and have a reason for 
continuing to learn the language. And, I believe that is 
growingly important in this day and age when the world needs 
language speakers and needs people to be able to communicate 
cross culturally. Thank you.
    Senator Akaka. Thank you. Mr. Wood.
    Mr. Wood. I think that it allows me to think outside of my 
own stereotypes that I had prior going. I think learning a new 
language and about their culture allows me to learn about the 
language and the people that are within the culture as the 
people and what they do and how they interact with each other, 
and it allows me to see them as, I guess I can explain this, it 
allows me to interact with them in a way where I could not have 
before if I did not learn their language; and with their 
language, it helped me develop a relationship with them.
    Senator Akaka. Thank you very much. Major Mitchell.
    Major Mitchell. Yes, sir. I think that language is sort of 
the hard science of understanding people who come from 
different paces than oneself. I find it emphasizing the common 
things between things that are common to myself, to my peers in 
the Army, and to people that we work with.
    Learning a language helps you to emphasize those common 
factors as human beings. So, I am a big advocate, maybe a 
language determinist in the sense that I think a lot of the way 
we think is done in language.
    So, if I want to know another way of thinking about a 
topic, to learn to do that in a different language gives me a 
different perspective. So, I am a big advocate of language 
training.
    Senator Akaka. I should tell you that I am a World War II 
veteran; and during that time, I served in the Pacific; and at 
that time, our country used our Japanese citizens to deal with 
the Japanese. And so, they became a part of what I call 
military intelligence service (MIS).
    But it is claimed that there were out there in the Pacific 
during that period of time and because of the language they 
were able to shorten World War II by years. So, even at that 
time language made a difference.
    And, I knew some interpreters for General MacArthur who 
served in the Philippines as well as in Japan after the war. I 
learned from them that their language speaking ability really 
made a difference with the Japanese and they were able to help 
stabilize the government at that time even to the point where 
it helped to bring Japan about so that it could become, as it 
has, one of the top industrial Nations.
    So, the language skills of our citizens makes a difference. 
I am so glad that we are moving in that direction. But I want 
to be sure we have adequate resources and programs to help 
bring this about.
    This is why we have you here on our panels. Everything you 
have said will be part of the record and will demonstrate the 
importance of these programs.
    So, I would like to say thank you to our witnesses for 
being here today. It is clear that we have made good progress 
to improve our Nation's language capabilities. However, as you 
know, more work remains to be done.
    I look forward to working with the Administration and my 
colleagues in the Senate to make sure we have robust language 
capabilities and you are helping us to do that.
    The hearing record will be open for 2 weeks for questions 
other Members may have. Again I want to say mahalo. Thank you 
so much for your responses and your statements.
    This hearing is adjourned.
    [Whereupon, at 4:47 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5214.001

[GRAPHIC] [TIFF OMITTED] T5214.002

[GRAPHIC] [TIFF OMITTED] T5214.003

[GRAPHIC] [TIFF OMITTED] T5214.004

[GRAPHIC] [TIFF OMITTED] T5214.005

[GRAPHIC] [TIFF OMITTED] T5214.006

[GRAPHIC] [TIFF OMITTED] T5214.007

[GRAPHIC] [TIFF OMITTED] T5214.008

[GRAPHIC] [TIFF OMITTED] T5214.009

[GRAPHIC] [TIFF OMITTED] T5214.010

[GRAPHIC] [TIFF OMITTED] T5214.011

[GRAPHIC] [TIFF OMITTED] T5214.012

[GRAPHIC] [TIFF OMITTED] T5214.013

[GRAPHIC] [TIFF OMITTED] T5214.014

[GRAPHIC] [TIFF OMITTED] T5214.015

[GRAPHIC] [TIFF OMITTED] T5214.016

[GRAPHIC] [TIFF OMITTED] T5214.017

[GRAPHIC] [TIFF OMITTED] T5214.018

[GRAPHIC] [TIFF OMITTED] T5214.019

[GRAPHIC] [TIFF OMITTED] T5214.020

[GRAPHIC] [TIFF OMITTED] T5214.021

[GRAPHIC] [TIFF OMITTED] T5214.022

[GRAPHIC] [TIFF OMITTED] T5214.023

[GRAPHIC] [TIFF OMITTED] T5214.024

[GRAPHIC] [TIFF OMITTED] T5214.025

[GRAPHIC] [TIFF OMITTED] T5214.026

[GRAPHIC] [TIFF OMITTED] T5214.027

[GRAPHIC] [TIFF OMITTED] T5214.028

[GRAPHIC] [TIFF OMITTED] T5214.029

[GRAPHIC] [TIFF OMITTED] T5214.030

[GRAPHIC] [TIFF OMITTED] T5214.031

[GRAPHIC] [TIFF OMITTED] T5214.032

[GRAPHIC] [TIFF OMITTED] T5214.033

[GRAPHIC] [TIFF OMITTED] T5214.034

[GRAPHIC] [TIFF OMITTED] T5214.035

[GRAPHIC] [TIFF OMITTED] T5214.036

[GRAPHIC] [TIFF OMITTED] T5214.037

[GRAPHIC] [TIFF OMITTED] T5214.038

[GRAPHIC] [TIFF OMITTED] T5214.039

[GRAPHIC] [TIFF OMITTED] T5214.040

[GRAPHIC] [TIFF OMITTED] T5214.041

[GRAPHIC] [TIFF OMITTED] T5214.042

[GRAPHIC] [TIFF OMITTED] T5214.043

[GRAPHIC] [TIFF OMITTED] T5214.044

[GRAPHIC] [TIFF OMITTED] T5214.045

[GRAPHIC] [TIFF OMITTED] T5214.046

[GRAPHIC] [TIFF OMITTED] T5214.047

[GRAPHIC] [TIFF OMITTED] T5214.048

[GRAPHIC] [TIFF OMITTED] T5214.049

[GRAPHIC] [TIFF OMITTED] T5214.050

[GRAPHIC] [TIFF OMITTED] T5214.051

[GRAPHIC] [TIFF OMITTED] T5214.052

[GRAPHIC] [TIFF OMITTED] T5214.053

[GRAPHIC] [TIFF OMITTED] T5214.054

[GRAPHIC] [TIFF OMITTED] T5214.055

[GRAPHIC] [TIFF OMITTED] T5214.056

[GRAPHIC] [TIFF OMITTED] T5214.057

[GRAPHIC] [TIFF OMITTED] T5214.058

[GRAPHIC] [TIFF OMITTED] T5214.059

[GRAPHIC] [TIFF OMITTED] T5214.060

[GRAPHIC] [TIFF OMITTED] T5214.061

[GRAPHIC] [TIFF OMITTED] T5214.062

[GRAPHIC] [TIFF OMITTED] T5214.063

[GRAPHIC] [TIFF OMITTED] T5214.064

[GRAPHIC] [TIFF OMITTED] T5214.065

[GRAPHIC] [TIFF OMITTED] T5214.066

[GRAPHIC] [TIFF OMITTED] T5214.067

[GRAPHIC] [TIFF OMITTED] T5214.068

[GRAPHIC] [TIFF OMITTED] T5214.069

[GRAPHIC] [TIFF OMITTED] T5214.070

[GRAPHIC] [TIFF OMITTED] T5214.071

[GRAPHIC] [TIFF OMITTED] T5214.072

[GRAPHIC] [TIFF OMITTED] T5214.073

[GRAPHIC] [TIFF OMITTED] T5214.074

[GRAPHIC] [TIFF OMITTED] T5214.075

[GRAPHIC] [TIFF OMITTED] T5214.076

[GRAPHIC] [TIFF OMITTED] T5214.077

[GRAPHIC] [TIFF OMITTED] T5214.078

[GRAPHIC] [TIFF OMITTED] T5214.079

[GRAPHIC] [TIFF OMITTED] T5214.080

[GRAPHIC] [TIFF OMITTED] T5214.081

[GRAPHIC] [TIFF OMITTED] T5214.082

[GRAPHIC] [TIFF OMITTED] T5214.083

[GRAPHIC] [TIFF OMITTED] T5214.084

[GRAPHIC] [TIFF OMITTED] T5214.085

[GRAPHIC] [TIFF OMITTED] T5214.086

[GRAPHIC] [TIFF OMITTED] T5214.087

[GRAPHIC] [TIFF OMITTED] T5214.088

[GRAPHIC] [TIFF OMITTED] T5214.089

[GRAPHIC] [TIFF OMITTED] T5214.090

[GRAPHIC] [TIFF OMITTED] T5214.091

[GRAPHIC] [TIFF OMITTED] T5214.092

[GRAPHIC] [TIFF OMITTED] T5214.093

[GRAPHIC] [TIFF OMITTED] T5214.094

[GRAPHIC] [TIFF OMITTED] T5214.095

[GRAPHIC] [TIFF OMITTED] T5214.096

[GRAPHIC] [TIFF OMITTED] T5214.097

[GRAPHIC] [TIFF OMITTED] T5214.098

[GRAPHIC] [TIFF OMITTED] T5214.099

[GRAPHIC] [TIFF OMITTED] T5214.100

[GRAPHIC] [TIFF OMITTED] T5214.101

[GRAPHIC] [TIFF OMITTED] T5214.102

[GRAPHIC] [TIFF OMITTED] T5214.103

[GRAPHIC] [TIFF OMITTED] T5214.104

[GRAPHIC] [TIFF OMITTED] T5214.105

[GRAPHIC] [TIFF OMITTED] T5214.106

[GRAPHIC] [TIFF OMITTED] T5214.107

[GRAPHIC] [TIFF OMITTED] T5214.108

[GRAPHIC] [TIFF OMITTED] T5214.109

[GRAPHIC] [TIFF OMITTED] T5214.110

[GRAPHIC] [TIFF OMITTED] T5214.111

[GRAPHIC] [TIFF OMITTED] T5214.112

[GRAPHIC] [TIFF OMITTED] T5214.113

[GRAPHIC] [TIFF OMITTED] T5214.114

[GRAPHIC] [TIFF OMITTED] T5214.115

[GRAPHIC] [TIFF OMITTED] T5214.116

[GRAPHIC] [TIFF OMITTED] T5214.117

[GRAPHIC] [TIFF OMITTED] T5214.118

[GRAPHIC] [TIFF OMITTED] T5214.119

[GRAPHIC] [TIFF OMITTED] T5214.120

[GRAPHIC] [TIFF OMITTED] T5214.121

[GRAPHIC] [TIFF OMITTED] T5214.122

[GRAPHIC] [TIFF OMITTED] T5214.123

[GRAPHIC] [TIFF OMITTED] T5214.124

[GRAPHIC] [TIFF OMITTED] T5214.125

[GRAPHIC] [TIFF OMITTED] T5214.126

[GRAPHIC] [TIFF OMITTED] T5214.127

[GRAPHIC] [TIFF OMITTED] T5214.128

[GRAPHIC] [TIFF OMITTED] T5214.129

[GRAPHIC] [TIFF OMITTED] T5214.130

[GRAPHIC] [TIFF OMITTED] T5214.131

[GRAPHIC] [TIFF OMITTED] T5214.132

[GRAPHIC] [TIFF OMITTED] T5214.133

[GRAPHIC] [TIFF OMITTED] T5214.134

[GRAPHIC] [TIFF OMITTED] T5214.135

[GRAPHIC] [TIFF OMITTED] T5214.136

[GRAPHIC] [TIFF OMITTED] T5214.137

[GRAPHIC] [TIFF OMITTED] T5214.138

[GRAPHIC] [TIFF OMITTED] T5214.139

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
